Supreme Court, U.S.
FILED

IN THE

FEB 0 2021

SUPREME COURT OF THE UNITED STATES

OFFICE OF THE CLERK

EARL McBRIDE Jr., PETITIONER V LORIE DAVIS, RESPONDENT
PETITION FOR REHEARING
Petitioner respectfully prays that a PETITION FOR REHEARING be granted to
review the January 15, 2021 ORDER denying a PETITION FOR WRIT OF CERTIORARI
in the above case number. Petitioner can demonstrate THIS COURT has
overlooked its long announced and well-established principles.

OPINIONS BELOW
The Opinions of the United States Court of Appeals shows clear disregard for (1)
the due process principle announced in Morrissey v. Brewer, 408 U.S.477, 482-84
(1972); And (2) clear disregard for the concise statutory authority of 28 U.S.C.
SECTION 2244(d)(1).

JURISDICTION
Petition for Rehearing of an ORDER denying a Petition for Writ of Certiorari is
authorized pursuant to Rule 44— RULES OF THE SUPREME COURT OF THE UNITED
STATES, This COURT'S jurisdiction is invoked under 28 U.S.C. SECTION 1254(1).

CONSTITUTIONAL ANS STATUTORY PROVISIONS INVOLVED
This case involves the Fourteenth Amendment, Section 1 Clause 3 of the United
States Constitution which provides;
"Nor shall any State deprive any person of life, liberty, or property without due
process of law".
This case also involves 28 U.S.C. SECTION 2244 (d)(1)-(2) which provides;
1

"A 1-year period of limitation shall apply to an application for writ of habeas
corpus by a person in custody pursuant to the judgment of a State court. (2) The
time during which a properly filed application for State post-conviction or other
collateral review with respect to the pertinent judgment or claim is pending shall
not be counted toward a period of limitation under this subsection".

STATEMENT OF THE CASE
Texas state prisoner Earl McBride achieved 'parole status on May 14, 2014 and his
PAROLE CERTIFICATE ISSUED May 30, 2014.

; BOARD OF PARDONS AND PAROLES
MINUtES .
NAME

r

VC. BClag (..ckv-

DATeLW...IL) DAY YEAR

dr1 (4
7Th

1

r

TUC

3 I 5 -.1 I

--L---

LI

SID

02I5).511

REASON AND /OR INSTRUCTIONS

BOARD ACTION

-_.

--r::, o DIMS

IMPOSE SISP 144) w
IT' W PREVIOUSLY

tni- 2 c! ".;n
.

.

.I

!1

,

J

PAP:OLE PLAN OF

t:).-,
!.".711Y
...
4

PROVE-Bri-S-Streir.
IIERIIFICAT P

,

_- , bl
1

-.941't'
------"

/-

,

..

v t-o' - 6-c(A-,1,A,0)

il:W.

McBride is currently incarcerated after achievement of parolee status; Texas
Parole Board has not provided McBride a "revocation hearing process".
McBride was informed by a Board employee on August 6 th,2014 that his
"parole status achievement" had been changed without a revocation hearing
process. On June 22, 2015 McBride properly filed State Habeas Corpus
Application. On July 1, 2016 exactly 16 days after State Court denial of his State

H

- Habeas Petition he filed his SECTION 2254 Habeas Petition in Federal District
Court.
SENDER: COMPLETE THIS SECTION ,

COMPLETE THIS SECTION ON DELIVERY.

Complete items 1, 2, and 3. Also complete
Item 4 if Restricted Delivery Is desired.
MI Print your name and address on the reverse
so that we can return the card to you.
Attach this card to the back of the mallpiece,
or on the front if space permits.

X

D Agent
0 Addressee
RastartirMReattAWSCni. Date of Delivery

D. Is delivery
If YES,

1. Article Addressed to:
CL\

Sig

S
. OA, -.VA sk..\
-•_).`

item 1? 0 Yes
0 No
ow:

Vt'sCA-

\Z-N. ‘c'i)
/A. co3

3. Servl
rkren
0 RegIste
13 Insured Mall

"-A 1 2„k..c)

0411
IiirilRecelpt for 'Merchandise
.O.D.

4. RettrIcted Delivery? (Extra Fee)
2. Article Number

.

(Thansfer from service laba0

PS Form 3811, February 2004

0 Yes

7009 2820 0002 9554 9208
• Domestic Return Receipt

102595-02-M460

REASONS FOR GRANTING PETITION FOR REHEARING
First: This SUPREME COURT has not announced that a State Parole Board's
failure to afford certified parolee a revocation hearing process does not violate
due process requirements announced in Morrissey v. Brewer 408 U.S. 477. The
collateral consequences of the State's actions has resulted in years of continued
incarceration without "due process"!
Second: This SUPREME COURT has not announced that a U.S. District Court or
Court of Appeals can exercise a discretionary practice of procedural denial of
constitutional habeas claims by disregarding the statutory limitation/(tolling)
clause of 28 U.S. C. SECTION 2244 (d)(1)-(2).
Final: Extreme departure from Supreme Court authority is clear. The importance
of the issue is to prevent the erosion of well-established constitutional due
process principle as announced by the Supreme Court of the United States!

3

CONCLUSION
In view of the above, a Petition For Rehearing should be granted in this case.
Rgspec ully submitted,
Ear Mc ride Jr., Petitioner
FEBRUARY]

2021

4

No.

20 -6039

IN THE
SUPREME COURT OF THE UNITED STATES

EARL McBRIDE Jr., PETITIONER V. LORIE DAVIS RESPONDENT

PROOF OF SERVICE
I, Earl McBride Jr., do hereby certify under penalty of perjury that the foregoing
PETITION FOR REHEARING was served upon the Clerk of the Court and State
Attorney General pursuant to Rule 29 of Rules of the Supreme Court on this 2
day of FEBRuARY2021 addressed to:
Clerk —SUPREME COURT OF THE UNITED STATES
1 First Street, NE, Washington D.C. 20543
Certified Return Requested Receipt
No

7019 1120 0001 8646 4723

And one copy: First Class Mail Postage Prepaid
Jennifer Wissinger Asst. Atty. General
Criminal Appeals Division
P.O. Box 12548, Austin, Texas 78711-2548
Respectfully submitted.

RECEIVED
Earl McBride Jr.,

FEB 16 2021
CLERK
THERT U.S.
OFFICE OF COU
SUPREME

NO. 20-6039

IN THE
SUPREME COURT OF THE UNITED STATES
EARL McBRIDE, JR., PETITIONER V. LORIE DAVIS, RESPONDENT
CERTIFICATE OF GOOD FAITH
PURSUANT RULE 44, RULES OF THE SUPREME COURT OF THE UNITED STATES:
The grounds are limited to intervening circumstances of substantial, controlling effect to other substantial grounds not previously presented.
United States Postal Service Form 3811 Domestic Certified Returned Receipts demonstrate Federal Habeas Petition met 28 U.S.C. Section 2244. The
State of Texas intentionally withheld State Official document(s) Mail Log
1-156 for June 22, 2015., as well as failed to summoned Mail Records at the
Harris County, Texas Clerk's Office, that recorded said Habeas Corpus by
Court Clerk Arthur Simpson. This specifically demonstrated a denial of Due
Process. See Moya V. U.S. 35 F3d 501, 504 - Hanger V. U.S. 285 U.S. 427, 430.
Texas Parole Board Business Records demonstrate that the SISP was granted
on 5-27-14., and the Parole Plan granted on 5-30-14., was approved; Both documents are in McBride's Parole file. On 5-30-2014 - Approved Issued Parole
Certificate L.E. was placed in McBride's file in accordance to Board of
Pardons and Parole Minutes Business Record. This document has been removed
from McBride's Parole file, Angela Nation, director over Processing/Release
stated, this document has never been "PRINTED or ISSUED", that does not coincide with Board's Official Business Records. The Parole Board not only denied
McBride a Revocation Hearing, the Board circumvented their own Board Policy
BPP.145.301, Section IV as well as Morrissey V. Brewer 408 U.S. 477 by denying
McBride due process. Angela Nation, Director of Processing/Release intentionally mislead the court(s), tampered with tangible information and records, and
either removed, destroyed or withheld State Offcial documents from this Court.
Executed on April 7 ,2021.

No.

20-6039

IN THE
SUPREME COURT OF THE UNITED STATES
EARL McBRIDE Jr., PETITIONER V. LORIE DAVIS, RESPONDENT

CERTIFICATE OF GOOD FAITH
Pursuant Rule 44 Rules of the Supreme Court of the United States
I, Earl McBride Jr., do hereby certify under penalty of perjury that the foregoing
PETITION FOR REHEARING filed by (me) an unrepresented party in these
proceedings; Is filed in GOOD FAITH with no intentions to delay nor harass any
parties nor the Court.
FEBRUARY

2: ;, 2021

Respec ully submitted,
sr.
Earl Mc ride Jr.,

